<html>
<title> - UNITED STATES BOXING COMMISSION ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                  UNITED STATES BOXING COMMISSION ACT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2005

                               __________

                            Serial No. 109-6

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
99-914                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director

      James D. Barnette, Deputy Staff Director and General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JAN SCHAKOWSKY, Illinois
NATHAN DEAL, Georgia                   Ranking Member
BARBARA CUBIN, Wyoming               MIKE ROSS, Arkansas
GEORGE RADANOVICH, California        EDWARD J. MARKEY, Massachusetts
CHARLES F. BASS, New Hampshire       EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania        SHERROD BROWN, Ohio
MARY BONO, California                BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE FERGUSON, New Jersey            TED STRICKLAND, Ohio
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
C.L. ``BUTCH'' OTTER, Idaho          JIM DAVIS, Florida
SUE MYRICK, North Carolina           CHARLES A. GONZALEZ, Texas
TIM MURPHY, Pennsylvania             TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee          JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                  (ii)
?



                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Schwartz, Michael B., Chairman, American Association of 
      Professional Ringside Physicians...........................     6
    Stevens, Ron Scott, Chairman, New York State Athletic 
      Commission.................................................    16
    Torres, Linda P., Counsel, McElroy, Deutsch, Mulvaney & 
      Carpenter, LLP.............................................    10
Additional material submitted for the record:
    McCain, Hon. John, a U.S. Senator State of Arizona, prepared 
      statement of...............................................    32

                                 (iii)

  

 
                  UNITED STATES BOXING COMMISSION ACT

                              ----------                              


                        THURSDAY, MARCH 3, 2005

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:34 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Clifford 
Stearns (chairman) presiding.
    Members present: Representatives Stearns, Cubin, Bass, 
Pitts, Murphy, Blackburn, Barton (ex officio), Schakowsky, and 
Towns.
    Staff present: Brian McCullough, professional staff; Chris 
Leary, policy coordinator; David Cavicke, chief counsel; Will 
Carty, professional staff; Billy Harvard, legislative clerk; 
Julie Fields, special assistant to the policy coordinator; Jon 
Tripp, deputy press secretary; Ashley Groesbeck, research 
assistant; Jessica McNiece, research assistant.
    Mr. Stearns. Let us start the subcommittee hearing. My 
colleagues, it was just last year that the subcommittee was 
honored by a visit from one of history's greatest heavyweight 
fighters, Muhammad Ali. Unfortunately, the account that he gave 
us about his sport--his beloved sport, was not full of tall 
tales about the rumble in the jungle or the thriller in Manila, 
but it was a call for additional Federal reforms in the sport 
of boxing and better protection for its outstanding athletes.
    Mr. Ali told us in no uncertain terms that without further, 
Federal reforms, the sport of boxing was in grave danger of 
becoming irrelevant in the eyes of the public and permanently 
scarred by years of scandal and corruption. According to 
Muhammad Ali and many other well-known, champion boxers, the 
problems surrounding professional boxing are not only 
alienating its fan base, but also endangering many of its young 
and talented fighters, many of whom, of course, are from 
disadvantaged communities like Muhammad Ali, and all they want 
is a fair shot at a better life. As Muhammad told us ``for all 
of its difficulties, boxing is still a wonderful sport. It 
still attracts men and women from all walks of life to reach 
for the glory in the ring.''
    For many, it is their first experience with really hard 
work, determination, and discipline. For still others, it 
remains the only way up and out from a life filled with bad 
choices, failure, or worse. Although a lot of a hard--a lot of 
work has been done to grant greater Federal oversight over 
boxing in America, the glamour and glitz of the big Vegas and 
Atlantic City bouts continue to obscure the fact that many, 
many everyday fighters, some 12,000 in the United States, are 
facing severe risk of injury and death as they compete in the 
roughly 1,000 professional bouts held in relative obscurity 
here in the United States, every year. And if that was not 
enough, those fighters who are lucky enough to avoid the 
extreme physical risks in the ring still face exploitation 
outside of it from the unsavory characters the sport continues 
to attract.
    To its credit, Congress has been working for over 10 years, 
trying to reform the sport at the Federal level. 1996, Congress 
passed the Professional Boxing Safety Act that require that all 
professional boxing matches be conducted under supervision of 
an authorized State boxing commission. That law also created 
uniform registration and licensing and established safety 
standards. The Muhammad Ali Boxing Act of 2000 continued the 
Federal reform effort by prohibiting Federal--prohibiting 
financial conflicts of interest between boxing managers and 
promoters, requiring certain financial disclosures, and 
creating new restrictions on contracts between boxers and 
promoters and managers.
    As we learned at our hearing last year, both of these laws 
have been relatively successful in policing boxing at the State 
and tribal level, in particular regarding the health and safety 
of boxers; but as several witnesses have also told us, the 
enforcement of these requirements is left to the States and 
tribal organizations, creating a patchwork of spotty 
enforcement, and there is ample opportunity, my colleagues, to 
beat the system and simply evade regulation. Last year's 
testimony was full of stories about the boxers who fall through 
the cracks and compete, unchecked, in jurisdictions that are 
less rigorous when they are banned from others.
    For these and other reasons, I do believe that additional 
Federal oversight to police the sport of boxing will certainly 
improve the lives of ordinary boxers. That is why I, along with 
my college from Illinois, Ms. Schakowsky, have introduced the 
United States Boxing Commission Act, H.R. 1065. We believe this 
bill will create a new Federal Commission, the United States 
Boxing Commission, USBC, which will be located within the 
Department of Commerce. The United States Boxing Commission Act 
specifies the following in the bill: it requires the USBC to 
promulgate uniform standards for professional boxing and 
consultation--in consultation with the Association of Boxing 
Commissioners. It requires the USBC to oversee all professional 
boxing matches, except as otherwise determined. It require the 
USBC to work with the States and tribal organizations to 
improve the state of professional boxing in the United States, 
including creating new standards. It requires that boxers be 
licensed every 4 years. It also requires that all managers, 
promoters, and sanctioning organizations be licensed by the 
USBC every 2 years; this includes giving the USBC the authority 
to revoke or suspend a license for cause after the opportunity 
for a hearing. It allows the USBC to conduct investigations 
with full power of subpoena. It requires the USBC to maintain a 
unified, national, computerized registry for collecting, 
storing, retrieving information that is relevant to the boxing 
profession.
    This is a tough bill, but it is for a tough sport, my 
colleagues. It is also a bill that strikes the right balance 
between the rights of local authorities to regulate sports 
activities in their communities and the clear need for uniform, 
Federal standards and enforcement for a dangerous and 
continued-problem-plague sport. I believe this bill is the 
necessary foundation to support the progress that has been made 
at the Federal level to protect the lives and health of these 
great, hard-working athletes. Passage will also ensure the 
reestablishment of the integrity and the honor of the great 
sport of boxing. With that, I would like to thank my 
distinguished panel for coming here this morning, and I look 
forward to their testimony. Ranking Member Schakowsky?
    [The prepared statement of Hon. Cliff Stearns follows:]

Prepared Statement of Hon. Clifford Stearns, Chairman, Subcommittee on 
                Commerce, Trade, and Consumer Protection

    Good Morning. It was just last year that this Subcommittee was 
honored by a visit from the one of history's greatest, Muhammad Ali. 
Unfortunately, the account that the Greatest gave us about his beloved 
sport was not full of tall tales about the Rumble in the Jungle or the 
Thriller in Manila, rather it was a call for additional federal reforms 
in the sport of boxing and better protections for it's outstanding 
athletes. Mohammed Ali told us in no uncertain terms that without 
further federal reforms, the sport of boxing was in great danger of 
becoming irrelevant in the eyes of the public and permanently scarred 
by years of scandal and corruption. According to the Greatest and many 
other well-known champion boxers, the problems surrounding professional 
boxing are not only alienating its fan base but also endangering many 
of its young and talented fighters, many of whom are from disadvantaged 
communities like Mohammad Ali and just want a fair shot at making a 
better life. As Muhammad told us: ``For all its difficulties, boxing is 
still a wonderful sport. It still attracts men and women from all walks 
of life to reach for glory in the ring. For many it is their first 
experience with hard work, determination and discipline. For still 
others it remains the only way up and out from a life filled with bad 
choices, failure, or worse.''
    Although a lot of work has been done to grant greater federal 
oversight over boxing in America, the glamour and glitz of the big 
Vegas and Atlantic City bouts continues to obscure the fact that many 
everyday fighters, some 12,000 in the U.S., are facing severe risk of 
injury and death as they compete in the roughly one thousand 
professional bouts held in relative obscurity here in the United States 
every year. And if that was not enough, those fighters who are lucky 
enough to avoid the extreme physical risks in the ring still face 
exploitation outside of it from the unsavory characters the sport 
continues to attract.
    To its credit, the Congress has been working for over a decade 
trying to reform the sport at the federal level. In 1996, the Congress 
passed the Professional Boxing Safety Act that requiring that all 
professional boxing matches be conducted under supervision of an 
authorized state boxing commission. That law also created uniform 
registration and licensing and established minimum safety standards. 
The Muhammad Ali Boxing Act of 2000 continued the federal reform effort 
by prohibiting financial conflicts of interests between boxing managers 
and promoters, requiring certain financial disclosures, and creating 
new restrictions on contracts between boxers and promoters/managers.
    As we learned at our hearing last year, both of these laws have 
been relatively successful in policing boxing at the state and tribal 
level, in particular regarding the health and safety of boxers. But as 
several witnesses also told us, the enforcement of these requirements 
is left to the states and tribal organizations creating a patchwork of 
spotty enforcement and ample opportunity to beat the system and evade 
regulation. Last year's testimony was full of stories about the boxers 
who fall through the cracks and compete unchecked in jurisdictions that 
are less rigorous when they are banned in others.
    For these and other reasons, I do believe that additional federal 
oversight to police the sport of boxing will improve the lives of 
ordinary boxers. This is why I, along with my colleague from Illinois 
Ms. Schakowsky, have introduced the United States Boxing Commission 
Act, H.R. 1065. This bill will create a new Federal Commission, the 
United States Boxing Commission (USBC), which will be located within 
the Department of Commerce. The United States Boxing Commission Act 
specifies the following:

 Requires the USBC to promulgate uniform standards for professional 
        boxing, in consultation with the Association of Boxing 
        Commissioners.
 Requires the USBC to oversee all professional boxing matches, except 
        as otherwise determined.
 Requires the USBC to work with the states and tribal organizations to 
        improve the state of professional boxing in the Unites States, 
        including creating new standards.
 Requires that boxers be licensed every four years, and also requires 
        that all managers, promoters, and sanctioning organizations be 
        licensed by the USBC every two years. This includes giving the 
        USBC the authority to revoke or suspend a license for cause 
        after the opportunity for a hearing.
 Allows the USBC to conduct investigations with full power of 
        subpoena.
 Requires the USBC to maintain a unified national computerized 
        registry for collecting, storing, and retrieving information 
        related to professional boxing.
    This is a tough bill for a tough sport. It is also a bill that 
strikes the right balance between the rights of local authorities to 
regulate sports activity in their communities and the clear need for 
uniform federal standards and enforcement for a dangerous and problem-
plagued sport. I believe this bill is the necessary foundation to 
support the progress that has been made at the federal level to protect 
the lives and health of these great athletes. Passage will also ensure 
the reestablishment of the integrity and honor of the great sport of 
boxing.
    With that, I would again like to again graciously thank our 
distinguished panel of witnesses for joining us today. We look forward 
to your testimony. Thank you.

    Ms. Schakowsky. Thank you, Chairman Stearns. I really 
appreciate your strong statement, and I thank you for holding 
today's hearing on our bill, the United States Boxing 
Commission Act.
    After our hearing last Congress, I think it was quite clear 
that the current boxing regulations, which are meant to ensure 
that boxers' health and financial interests are protected, were 
not being adhered to as they should be. Not all trainers or 
fight promoters are like Clint Eastwood. And we were informed 
at that hearing, by the presence and the eloquent testimony of 
Muhammad Ali and other great experts, and as a consequence, 
Chairman Stearns and I, both, agreed that it was time to do 
something about this, and I look forward to working with you, 
Mr. Stearns, on this bill.
    What we are doing is significant. Historically, as you 
know, the regulation of boxing has been purely under the 
jurisdiction of the States. In the mid-1990's, when reports of 
corruption and scandals became more frequent, Congress decided 
it was time to take a closer look at that sport; after all, 
boxing is no small affair. The sport generates over $500 
million in revenue each year, and with the passage of the 
Professional Boxing Safety Act in 1996, soon followed by the 
Muhammad Ali Act in 2000, minimum standards were set to protect 
the physical and economic well being of the boxer, and each 
State boxing commission was charged with meeting those 
standards. While some States, such as New York, Pennsylvania, 
and Nevada have strong boxing commissions that go well beyond 
the minimum Federal requirements, there is still concern that 
other States are ignoring the regulations.
    Many argue that federally mandated health and safety 
standards are not being adhered to because no corresponding 
government regulatory body exists. The absence of a national 
commission makes boxing unlike all other major professional 
sports and I believe should give us pause. Boxing is also 
unlike many other sports in that there are often especially 
serious physical repercussions. That means if the health and 
safety standards are not being met, if the professionals who 
are used to monitor boxers' fitness are not experts in the 
appropriate medical fields, the boxers' very lives are at 
stake. Approximately 50 boxers have died in the ring over the 
last 35 years.
    Additionally, because so many parties have a financial 
stake in each boxing match and their interest may run counter 
to getting the boxer the most favorable contract terms, many 
boxers end up destitute. In this sense, boxers are like many 
other kinds of talent or workers. Their gifts are others 
fortunes, and they are treated as disposable assets. Now that 
networks and broadcasters are acting more like promoters, but 
are not subject to the same regulations that traditional 
promoters are, I believe that there are new vulnerabilities in 
the sport which we should examine. I believe that is our 
responsibility to--that it is our responsibility to ensure that 
boxers are not being put in the ring without being protecting, 
both physically and economically. That what I am so pleased 
that our bill establishes the United States Boxing Commission 
to make sure that standards are uniform and boxers are 
protected. I am very glad that all of our panelists are here 
with us today to help us determine the best role for the 
Federal Government to play to ensure the best interest of those 
participating in the sport, and I look forward to your 
testimony. Thank you, Chairman Stearns.
    Mr. Stearns. I thank my colleague and distinguished member 
of the full committee, Mr. Barton.
    Chairman Barton. Thank you, Mr. Chairman. I am going to put 
my statement in the records. I want to thank you for the 
hearing, thank you for the bipartisanship work that you and 
Ranking Member Schakowsky have put together on this issue. I 
want to thank our witnesses and also thank Senator McCain in 
the other body for advocacy for reform. While I am not sure 
that we have agreement between this body and the other body in 
exactly what needs to be done, both bodies agree that something 
needs to be done, and this is a good step, so I want to thank 
you all for your bipartisanship, thank our witnesses, and I 
look forward to being here.
    [The prepared statement of Hon. Joe Barton follows:]

 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    Thank you, Chairman Stearns, for holding this hearing today, 
following up on your hearing last Congress on whether additional 
legislation was needed to address the problems in boxing. Despite the 
powerful presence and words of Muhammad Ali, that hearing provided some 
lively debate, as not all witnesses were unanimous on the need for 
additional legislation or what it should encompass.
    This Committee has enacted legislation twice in the past nine years 
to improve the boxing business. Those reforms have made progress and 
provide boxers today with greater protections than were available to 
Muhammad Ali and previous generations of boxers.
    Creating a Federal Commission to regulate a sport is a big step for 
Congress. The Federal Government simply can't solve all of society's 
problems. Introducing new Federal regulations is never an easy task, 
and introducing a new REGULATOR is even more challenging. Nonetheless, 
I am happy to work on this legislation and devote Committee resources 
to examine solutions to some of the problems that have been identified.
    Any Federal legislation needs to ensure we do not create unintended 
consequences. I am aware of some concerns, for instance, regarding the 
role of television and cable networks that broadcast boxing matches. We 
need to be sure not to implicate other Federal laws outside the scope 
of this legislation that have negative consequences.
    I look forward to working with all the interested parties and to 
the testimony today. Thank you.

    Mr. Stearns. I thank the gentleman from New York, Mr. 
Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. Let me thank 
you, Chairman Sterns, for holding this hearing and Ranking 
Member Schakowsky for your work. I agree. Something needs to be 
done, and I want to thank you for holding this hearing on H.R. 
1065. I would also like to welcome a fellow New Yorker, of 
course Ron Scott Stevens, the chairman of the New York State 
Athletic Commission. Good to see you. I look forward to hearing 
your views on this legislation, as well as those of other 
witnesses.
    As a longtime boxing fan, I commend the chairman for his 
effort to protect the health of boxers and to ensure fairness 
in the wonderful profession of boxing. Historically, one could 
argue that there is no event more exciting than a championship 
fight where a belt is on the line. From Sugar Ray Robinson to 
Muhammad Ali to Sugar Ray Leonard, championship boxers have 
captivated the American public. Let me conclude by saying this: 
I really feel that the public is concerned about the integrity 
of the sport, such as scoring or refereeing. Others are worried 
about the health of the boxers, you know, who continue to 
fight--it seems sometimes long past a period that they should. 
Also, we are concerned about the fact that a boxer gets knocked 
out in one State, gets in his car and drives and goes to fight 
in another State--or gets on a plane and goes to fight in 
another State, and there is nothing to stop that.
    More importantly, there are so many sanctioning bodies, the 
fans do not even know who the champion is. By creating a 
centralized body to create a--uniform standard, it appears that 
this bill may help address some of the ills that currently 
affect the sport.
    You know, Mr. Chairman, I really believe in athletics, and 
of course--and I think that we should be as supportive as we 
possibly can, but when something is broken, we need to fix it. 
And let me say to you, this is broken, and we definitely need 
to fix it. On that note, I yield back.
    Mr. Stearns. I thank my colleague, a gentlelady, Ms. Cubin.
    Ms. Cubin. Thank you, Mr. Chairman. I don't have an opening 
statement, but I will have questions later for the panel. Thank 
you.
    Mr. Stearns. Thank you. Ms. Blackburn? No opening 
statement? Okay. Mr. Pitts?
    Mr. Pitts. I shall submit my opening statement for the 
record.
    Mr. Stearns. Okay. Mr. Murphy? Okay. With that, we will go 
right to the witnesses. Mr. Michael Schwartz, Chairman of the 
American Association of Professional Ringside Physicians; Ms. 
Linda Torres, Counsel, McElroy, Deutsch, Mulvaney, and 
Carpenter, on behalf of the International Boxing Federation, 
you are here. And Mr. Ron Scott Stevens, Chairman of the New 
York State Athletic Commission. Thank you very much for coming. 
And we will start, Dr. Schwartz, with you for your opening 
statement, and welcome.

     STATEMENTS OF MICHAEL B. SCHWARTZ, CHAIRMAN, AMERICAN 
   ASSOCIATION OF PROFESSIONAL RINGSIDE PHYSICIANS; LINDA P. 
 TORRES, COUNSEL, McELROY, DEUTSCH, MULVANEY & CARPENTER, LLP; 
   AND RON SCOTT STEVENS, CHAIRMAN, NEW YORK STATE ATHLETIC 
                           COMMISSION

    Mr. Schwartz. Thank you. My name is Dr. Michael Schwartz. I 
am the Chairman and President of the American Association of 
Professional Ringside Physicians. I am also the Chief Ringside 
Physician for the State of Connecticut, Foxwood's Resort Casino 
and Mohegan Sun Casino in Connecticut. In addition, I am a 
member of the Medical Advisory Committee for the Association of 
Boxing Commissions. I am a board-certified internist, and I 
have a private practice in Darien Connecticut. And I would like 
to thank the committee for this opportunity to testify in this 
most important legislation.
    I started working as a ringside physician in 1991, first as 
an amateur in amateur boxing, and then, ultimately, in 
professional, and I quickly recognized the lack of safeguards 
to protect these athletes. In 1997, we were working a fight 
with Roy Jones, Jr. and before the fight, none of the medical 
requirements that we had required were there; and this was a 
very common situation that I would--that would be incurred each 
time I would have a fight. And I struggled to get all of the 
medical documentation in, and we saved the fight, literally, an 
hour before the fight, so some of the commissioners came to me 
and said, well, we think it is broken--boxing is broken, and 
why don't you try to fix it, Dr. Schwartz. So in 1997, I formed 
an association of ringside physicians to try to standardize the 
medical aspects of the sport. Right now, we are a non-for-
profit organization. We have about 350 ringside physicians 
around the country and some international now, to address 
issues pertaining to boxing safety, including medical testing, 
standardization of medical requirements, the creation of a 
medical data bank, and a comprehensive certification program, 
which we recently introduced to ensure that only qualified 
physicians work as ringside physicians. Anecdotally, we have 
heard stories of chiropractors and veterinarians acting as the 
physicians and sometimes simply physician assistants or nurses. 
We recently started a medical assistance program to help boxers 
who don't have health insurance and a medical review board to 
help with issues pertaining to boxing medical safety. We have 
an annual medical seminar to educate physicians, to share 
ideas, and to discuss relevant boxing safety. Our goal is to 
identify those boxers who should never step into the ring in 
the first place. By not allowing them to get in the ring, 
perhaps we could decrease the risk of mortality and morbidity 
in the boxing arena.
    We are the only major sport that does not have a 
commission. Baseball, football, hockey, basketball all have 
commission. Even sports that are individual sports that are 
individual sports, like tennis, golf, bowling, have 
commissions. We don't.
    Commissions are necessary for standardization of the sport. 
Right now, we have no standardization from State to State. In 
2003, the ABC Medical Advisory Board came up with what we 
thought were minimum medical standards to address these issues. 
The ABC voted and agreed on it. The AAPRP, later that year, 
ratified and agreed with these minimal medical standards; 
however, almost no States adopted these. These included things 
like CAT scans, MRIs, blood tests, dilated eye exams amongst 
other things, and unfortunately a lot of States did not adopt 
these, claiming that it either was a legislative issue or a 
cost issue or they just chose not to do it. States like New 
York, New Jersey, Connecticut, Nevada have either adopted these 
or exceeded these; other States don't. Therefore, we have 
boxers and managers that are now State shopping. If they know 
there is something wrong, they are going to go to a State that 
does not require that, and they are going to be able to 
compete.
    I only find out about these things when they come to my 
State and I require the tests. I have found issues such as 
hepatitis, brain injuries, eye damage, seizure disorders, 
boxers fighting on Coumadin, which is a blood thinner. In 
addition, we need a medical registry or a data bank to maintain 
these medical tests. We have had situations where I have 
received 7 electrocardiograms--that is a heart test--the same 
EKG. All they did was whited out the name and copied it and 
gave it to me. If there was an administrative responsible for 
organizing all of these tests, then we would be able to just 
simply download it off the Internet, and we would be able 
identify those boxers at risk. In addition, a lot of kids have 
these tests in other States and don't know where they put the 
results. We make them get it again, and it costs--an additional 
cost to them.
    There are several bills right now, I know, in the Senate 
and in the Congress that address forming a boxing committee, a 
boxing organizing/boxing commission. Regardless of what bill is 
ultimately passed, it must establish the minimum medical and 
safety issues that are necessary to protect these individuals. 
It must define a doctor as an MD or a DO. It must establish a 
medical registry. It must make sure that the physicians are 
qualified through education/certification. And most--the most 
important thing is that we protect these kids so that they have 
a life after boxing. Thank you.
    [The prepared statement of Michael B. Schwartz follows:]

Prepared Statement of Michael Schwartz, Chairman, American Association 
                  of Professional Ringside Physicians

    I am Dr. Michael Schwartz, Chairman of the American Association of 
Professional Ringside Physicians (the ``AAPRP''), a not for profit 
organization comprised of approximately 350 ringside physicians 
throughout the world. In addition, I am the chief ringside physician 
for the State of Connecticut, Mohegan Sun Casino and Foxwoods Resort 
Casino. I am also a member of the Medical Advisory Board for the 
Association of Boxing Commissions (the ``ABC''). I have been a ringside 
physician since 1991 and have served as the chief ringside physician at 
over 200 boxing matches. I am board certified in Internal Medicine and 
have a private practice in Darien, Connecticut.
    I would like to thank the Subcommittee on Commerce, Trade, and 
Consumer Protection (the ``Committee'') for this opportunity to testify 
with respect to the proposed United States Boxing Commission Act (the 
``Proposed Bill''). As a ringside physician, my goal has always been to 
promote the safety and protection of the individual fighter. In 1991, 
when I first started to work as a ringside physician, I became aware 
that boxing, an inherently dangerous sport, lacked necessary safeguards 
to protect the participants. As a result, I formed the AAPRP, to 
addresses issues pertaining to boxing safety including medical testing, 
standardization of medical requirements, the creation of a medical data 
bank and the creation of a comprehensive certification program which 
will insure that only qualified and experienced physicians act as the 
primary ringside doctor at boxing matches. In addition, the AAPRP 
conducts yearly medical seminars to educate physicians, create a forum 
for the sharing of ideas and the discussion of relevant issues to 
boxing safety.
    Through the hard work of our members, I believe that the AAPRP has 
indeed improved the current medical environment for the professional 
boxer which has resulted in a decrease of serious injuries and, quite 
possibly, deaths in professional boxing. Unfortunately, much of the 
great work accomplished by the AAPRP has not been adopted by many 
States or other boxing jurisdictions. Without a centralized national 
boxing commission, the fighter is not guaranteed the safe setting, with 
an appropriately trained ringside physician, that he or she justly 
deserves. Indeed, I am aware of many situations where ambulances are 
not available at the boxing venue for emergencies. Moreover, I know 
that many professional boxing matches have gone forward without 
physicians experienced in ringside medicine present. For example, while 
physicians trained in the practices of obstetrics and gynecology, 
dermatology or psychiatry are surely capable of being excellent 
ringside physicians, without prior experience they clearly are not 
trained in disciplines which would give them the proper insight to 
assist an injured boxer or detect a symptom prior to permitting such 
boxer to fight. In fact, there have been reports of chiropractors and 
even veterinarians acting as primary ringside physicians.
    Boxing is the only major sport without a national commission. 
Baseball, football, basketball and hockey are all governed by national 
commissions. In fact, even individual sports such as tennis, golf and 
bowling have commissions. These commissions assure standardization 
regardless of where a competition may take place. The rules in one 
venue are the same in another. In addition, all athletes are entitled 
to receive the same medical evaluation and treatment no matter where 
the match may take place. This is not, however, the situation in 
boxing. With respect to professional boxing, medical requirements and 
care differ from venue to venue. For example, in the state of 
Connecticut, each competitor is required to have a complete physical 
examination, a dilated eye exam, an electrocardiogram, a CT scan or MRI 
of the brain, blood testing including HIV, hepatitis B and C, as well 
as a pre and post fight physical examination. Some jurisdictions, 
however, require nothing more than a pre-fight ``mini-physical'' 
examination. This can, and I believe has, resulted in athletes being 
exposed to significant risk since certain underlying medical conditions 
will not be identified without a complete pre-fight physical 
examination and essential testing. In my experience, as a result of a 
review of medical examinations and tests required by the Connecticut 
State Commission, and the Manshantucket Pequot and Mohegan Tribal 
Commissions, I have discovered many life threatening issues including 
infectious hepatitis B, brain abnormalities and cardiac arrhythmia's, 
as well as illicit drug use which can impede a fighters' ability to 
perform as he or she should. Many of these health limitations were 
identified only because of the pre-fight requirements of these 
Commissions. Regrettably, these same fighters fought multiple times in 
other jurisdictions which failed to identify these abnormal health 
issues simply because the physicians could not look for them. Without 
standardized medical requirements in boxing we may never know how many 
deaths or chronic injuries might have been prevented.
    In 2003, the medical advisory board of the ABC proposed minimum 
medical requirements for all jurisdictions to incorporate in 
authorizing a boxer to fight. The AAPRP quickly ratified and endorsed 
these requirements and applauds the efforts of the ABC. However, 
notwithstanding the ABC's recommendation, I understand that most boxing 
jurisdictions have elected not to adopt these recommendations citing 
cost or legislative concerns (some simply chose not to adopt them 
without any explanation). As a result, boxers and managers now ``state 
shop,'' i.e., when a fighter has a pre-existing medical condition which 
would preclude their participation in one jurisdiction, they simply 
find a jurisdiction without requirements in place to identify their 
medical abnormality and fight there. Undoubtedly, without a centralized 
commission established and governed by official regulation, there will 
never be uniformity amongst the various commissions throughout the 
United States.
    In addition, there is no medical registry or data bank to document 
and maintain results of medical tests. Fighters are often required to 
unnecessarily repeat medical tests, at a significant cost, since they 
are unable to produce the proof or documentation of previous test 
results. The expense of repetitive testing, often prohibitive to some 
fighters and managers, has resulted in unscrupulous attempts to ``beat 
the system.'' For example, one afternoon I received the identical 
electrocardiogram (EKG) for seven different fighters during their pre-
fight physicals. Apparently, the manager had ``whited-out'' the name on 
one healthy test and inserted each fighter's information onto a copy of 
the document. If a central agency was responsible for evaluating and 
recording these medical records, ringside physicians would be able to 
track each fighter's personal medical history without concern of such 
potential deceit. Also, if this information was available to ringside 
physicians via the internet, the doctors would have an additional tool 
for immediately identifying those who are at risk for injury before 
conducting a pre-fight physical examination. Moreover, this information 
could also be utilized as a means to further study and research the 
medical aspects of boxing. Unfortunately, medical research into boxing 
safety is practically non-existent. Additionally, those individuals who 
are conducting research have difficulty acquiring information and 
basically no funding to support their studies. This helpful information 
could be made available if there was an administrative body responsible 
for organizing and maintaining a data bank program.
    As this Committee is obviously aware, recently on January 25, 2005, 
Senator John McCain introduced S.148, the Professional Boxing 
Amendments Act of 2005. Similarly, on February 1, 2005, Congressman 
Peter King proposed H.R. 468, the ``Professional Boxing Amendments Act 
of 2005.'' Both of these bills were proposed ``[t]o establish a United 
States Boxing Commission to administer the Act, and for other 
purposes.'' It is important to note that in addition to establishing a 
national commission on boxing, both S.148 and H.R. 468 address the 
necessity of regulation with respect to the medical aspects related to 
the sport of boxing. For example, these bills define the term 
``Physician'' as used in the Act, as a doctor of medicine legally 
authorized to practice medicine by the State in which the physician 
performs such function and who has training and experience in dealing 
with sports injuries, particularly head trauma. In addition, they 
provide for the establishment and maintenance of a medical registry 
which would contain comprehensive medical records, denials and 
suspensions for every licensed boxer.
    The AAPRP continues to work diligently in its efforts to make 
boxing safer for the individual boxer, consequently improving the 
respectability and credibility of the sport. Notwithstanding the 
AAPRP's selfless efforts, it has become increasingly difficult to 
preserve and protect the boxer's health absent standardization, 
information sharing and legislative backing. Boxing needs a centralized 
commission. A centralized commission will assist the ringside 
physician, whose sole goal is to make the sport as safe as possible for 
the individual boxer. As chairman of the AAPRP, and individually as a 
concerned and dedicated ringside physician, I urge this Committee to 
adopt legislation that makes safety its first priority when forming a 
national commission for boxing. Accordingly, it is my opinion that any 
legislation which creates a Federal Boxing Commission, including the 
proposed Bill, must definitively address the medical aspects of the 
sport and unconditionally provide support for medical research and 
maintenance of a centralized medical data bank similar to that proposed 
by S.148 and H.R.468.
    Thank you for your time and consideration.

    Mr. Stearns. I thank you. Ms. Torres, welcome.

                  STATEMENT OF LINDA P. TORRES

    Ms. Torres. Thank you, and thank you for inviting us, 
Chairman Stearns, and----
    Mr. Stearns. You might pull the mic a litter closer to you.
    Ms. Torres. Sure.
    Mr. Stearns. Oh.
    Ms. Torres. Is that better?
    Mr. Stearns. That is better.
    Ms. Torres. Okay.
    Mr. Stearns. Thanks.
    Ms. Torres. Thank you, Chairman Stearns and the members of 
the House Subcommittee on Commerce, Trade, and Consumer 
Protection. We are here today--I am here today, representing 
both the International Boxing Federation and the World Boxing 
Association. That would be 2 different sanctioning 
organizations. I would like to address, actually, something 
that was said by Mr. Towns of New York, who apparently just 
left the room for a moment. He mentioned one of the 
difficulties in the world of boxing right now is that there are 
so many sanctioning bodies the public does not know who the 
champion is. I don't know that having a national boxing 
commission will be actually doing away with any of the 
sanctioning organizations. What it can do is make sure that the 
organizations adhere to the provisions that are already in 
place, such as posting rating, posting ratings changes, posting 
bylaws, and making an appeal process available to boxers to 
contest their ratings; but I don't know that this commission 
can actually disband any private business that have been set 
up.
    The positive thing about having multiple sanctioning 
organizations is that they are giving more and more boxers the 
opportunity to work their way up in the rankings of the 
organizations and actually fight for a title. If you only had 1 
group, you would only have 17 weight classes and 15 people in 
each weight class, and that would be it. With more than 1 
organization, you have got more people being permitted to fight 
for titles, and you have go the possibility of the champions 
unifying the titles by either getting 2 titles or 3 major 
titles.
    The--I think the purpose--the stated purpose of the boxing 
commission, which is to protect the interests of boxers and to 
ensure uniformity, fairness, and integrity and prevent--in 
professional boxing is laudable. The actual bill does not 
specifically address how any of this is going to be done. When 
it talks about something like the commission overseeing all 
professional boxing matches--on any given weekend in many 
different states, there are a lot of bout cards being produced. 
I don't know what the commission is going to actually do with 
those fights. Are they going to hire people and send them 
there? Are they going to review the contract? So again, to 
state certain things is one thing. To actually carry them out 
and figure out how to do them is of interest to most people in 
the industry, to see how it will be done.
    In reviewing the substance of 1065, I was somewhat 
concerned that the aspect of health and safely was relegated to 
somebody publishing a report in a year or 2 on the 
standardization of health and safety. That is a major issue at 
the moment. Certain States require ambulances to be at the 
site; others don't. Certain States require extensive testing 
for infectious diseases, and other States don't. I think if you 
are going to protect the boxer, you have got to protect the 
health and safety, and perhaps that should be brought a little 
more to the forefront of this bill.
    Regarding the licensing provisions, as the bill is drafted 
right now, again, it is very general as to the grounds for 
suspending or revoking a license of a manager, a promoter, or a 
sanctioning organization. There are some grounds that say it--a 
reasonable ground for belief that a standard is not being met. 
Since there are no standards in the bill yet--and this is just 
a general bill-setting-up--the commission--it is difficult how 
that will be--will play out and be enforced in the future. 
Another reason for suspension or revocation of a license is in 
the public interest. In the sport of boxing, you may have 1 
Internet writer who has a very different view of the public 
interest than a boxer would or than a promoter or a manager 
would. So again, it is a little vague at this point in time.
    Regarding the funding from the licensing fees, there is a 
provision in the bill that states that promoter and sanctioning 
organization--are to pay the largest proportion of the fees. I 
don't know if the committee is aware of the type of fees that a 
sanctioning organization charges and for what fights. The 
sanctioning organization only charges a fee for a world 
championship title fight. Many of the fights that you see on 
ESPN and MSG are not world championship title fights. When 
there is a title fight, the organization receives a maximum of 
3 percent of the fighter's purse. The organizations will also 
charge a nominal fee of $1,000 a boxer, no matter what the 
boxer is making, on a fight that is called an eliminator. That 
is a fight between 2 ranked boxers in order to attain the 
position of number 1 or number 2 in the ranking to entitle them 
to then move up and fight for the title.
    The persons who make the most money on these major fights 
are clearly the networks. The networks are making millions of 
dollars. They are also dictating who boxers can fight and 
rejecting certain opponents and not allowing them to fight 
certain opponents. They are entering into long-term contracts 
with boxers, and they actually act as promoters. To regulate an 
industry, a major player are the networks, and they should be 
included.
    As recently as yesterday in the New York Daily News, there 
was a quote regarding a certain fight. It says--this is an 
article by Tim Smith, I believe. It says ``and Showtime, 
needing a worthy opponent for its broadcast, on a free-preview 
weekend, no less, wouldn't accept just anybody.'' So regardless 
of the rules of a sanctioning organization that may say a 
champion must fight the next leading, available contender who 
has been designated the mandatory opponent, sometimes the 
networks just won't buy it. If you did not have sanctioning 
organizations, every single match you saw would only be 
controlled by the networks and the media darlings would be the 
only boxers you would see over and over. The organizations 
exist to give up-and-coming, young boxers an opportunity to 
fight for a title.
    Mr. Stearns. We just need you to sum up, if you couldn't. 
You are about 2\1/2\, almost 3 minutes over.
    Ms. Torres. I am sorry.
    Mr. Stearns. No, that is okay.
    Ms. Torres. I am finished.
    [The prepared statement of Linda P. Torres follows:]

      Prepared Statement of Linda P. Torres, Legal Advisor to the 
                 International Boxing Federation, Inc.

    Chairman Stearns, members of the Subcommittee, my name is Linda 
Torres and I thank you for giving me this opportunity to present the 
views of the International Boxing Federation, Inc. (IBF). Over the past 
few years, the International Boxing Federation Inc. has worked with the 
World Boxing Association (WBA) on efforts to improve the sport of 
boxing, and I have been authorized by the WBA to submit this testimony 
on behalf of both organizations, in order to provide you with a broad 
perspective from world sanctioning bodies. Both the IBF and WBA are 
sanctioning organizations with international membership and 
affiliations with regional boxing federations in other countries.
    Of the hundreds of sports that are practiced in the United States, 
we are unaware of any that are comprehensively regulated by a United 
States federal agency. That is why we are here today. While a recent 
test revealed that between 5 and 7 percent of major-league baseball 
players tested positive for steroids, professional baseball is not 
comprehensively regulated by a federal agency. While NASCAR drivers 
travel at speeds of up to nearly 200 miles per hour which has led to 
notable deaths and injuries, race car driving is not comprehensively 
regulated by the federal government. Even kickboxing, where 
participants can strike each other with elbows and kicks to the head, 
and mixed martial arts, where participants can hold another human being 
against a chain linked cage and beat them into submission or 
unconsciousness, are not regulated by the federal government. Instead, 
we are here today to discuss why boxing should be the only sport in the 
United States to be comprehensively regulated by the United States 
government, through the establishment of a new federal agency, solely 
dedicated to the oversight of the sport of boxing.
    We have heard the arguments for federal oversight. However, unlike 
some of the sports that I previously mentioned, boxing is already 
regulated by nearly every state in the United States. Additionally, a 
union has recently been formed for boxers, and there are dozens of 
promoters, and hundreds of managers, trainers, and matchmakers in the 
sport. There is even an Association of Boxing Commissions (ABC), an 
organization comprised of employees of state boxing commissions, that 
is working to standardize the rules and administration of boxing 
throughout the United States. They have developed unified rules for 
professional boxing contests and have made suggestions for the criteria 
for the ranking of fighters that the IBF, WBA and other world 
sanctioning organizations are urged to adopt. To date, the 
organizations have incorporated the ratings criteria suggested by the 
ABC into their own sets of criteria. We are presently working with the 
ABC on reviewing newly suggested criteria.
    The IBF and WBA are aware that there is room for improvement in the 
sport of boxing. In order to address the problems that plague the 
sport, the IBF has taken a lead role by bringing interested parties in 
the sport of boxing together to openly discuss improvements that can be 
made. At our annual convention last June in San Francisco, the IBF 
invited the boxing world, including this committee, to a discussion 
titled, ``The Future of Professional Boxing,'' which was an open 
discussion of the issues that need to be addressed in the sport of 
boxing (see APPENDIX A). Panelists for this event included New Jersey 
Athletic Commissioner Larry Hazzard, international matchmaker Carl 
Moretti, and IBF World Heavyweight Champion Chris Byrd. When President 
Bush proposed a White House ``summit'' on steroid use in sports, the 
IBF and WBA informed the Office of National Drug Control Policy's 
Assistant Deputy Director that the two organizations are committed to 
``maintain[ing] the integrity of the sport of boxing'' and 
``protect[ing] the health and safety of fighters'' and would be happy 
to attend (see APPENDIX B).
    The IBF and WBA do not believe that the federal government should 
create a new federal agency to regulate the sport of boxing. Rather, 
the organizations believe that the boxing industry itself should be 
allowed to address the sport's problems, as other sports do. 
Specifically, Congress could direct the Association of Boxing 
Commissions to establish minimum health and safety requirements for 
boxers to be adopted by each state. This would insure, for example, 
that each state has the appropriate medical equipment and personnel 
present at a boxing match, and that each state tests fighters for 
infectious diseases such as HIV, Hepatitis C and other performance 
enhancing drugs and steroids. This would allow Congress to address the 
health and safety issues in the sport without having to create and fund 
a federal agency to oversee the sport.
    Having expressed our concerns and belief that it is not necessary 
for Congress to create a new federal agency to oversee boxing, if 
Congress intends to regulate the sport through a new federal agency, 
the United States Boxing Commission Act is the best model for 
accomplishing this task. While other bills have been proposed, they 
would attempt to micromanage the sport of boxing. The United States 
Boxing Commission Act, on the other hand, recognizes that boxing is an 
international sport and instead focuses on the health and safety of 
boxers and the standardization of practices throughout the states in 
the interest of commerce, trade and consumer protection. However, in 
these interests, the IBF and WBA believe that several minor changes 
should be made to the bill. They are as follows:

1. The United States Boxing Commission Act should be amended to assure 
        that law abiding individuals and entities are not put out of 
        business
     The United States Boxing Commission Act requires boxing managers, 
promoters and sanctioning organizations to obtain a license from the 
United States Boxing Commission (created in the bill) in order to work 
fights in the United States (Section 4). However, this license can be 
taken away if ``there are reasonable grounds for belief that a standard 
prescribed by the Commission . . . is not being met'' or that ``the 
suspension or revocation [is] in the public interest'' [Section 7 (1) 
B,C]. It appears that, a law abiding individual or entity could have 
its license taken away, and essentially be put out of business (as a 
license is required to work in the United States), without it ever 
being demonstrated that the individual or entity did anything wrong. 
``Reasonable grounds for belief'' and the ``public interest'' are 
undefined and very vague. A licensee should only lose its license if it 
has actually been proven, upon notice and after hearing, that it has 
done something illegal or in violation of the statute.

2. The United States Boxing Commission Act should be amended to reflect 
        the financial reality of the sport
    The United States Boxing Commission Act would require sanctioning 
organizations and promoters to pay the largest portion of licensing 
fees [Section 4 (b) 2B]. Promoters, televisions networks and cable 
companies often make millions of dollars on professional boxing 
matches. In contrast, sanctioning organizations only collect up to a 
maximum of 3% of a fighter's purse (how much the fighter is paid) in a 
championship fight. Nominal fees are paid for eliminators. There are no 
sanctioning fees paid at all unless the bout is a title fight of 
eliminator in a weight class. The bulk of the revenue from a fight is 
typically split with the largest portions going to the networks, 
promoters, managers and fighters. Therefore, it would be unfair for 
sanctioning bodies to pay ``comparatively the largest portion'' of 
fees, when they are comparatively paid much less than other licensed 
parties.

3. The United States Boxing Commission Act fails to regulate the 
        largest players in professional boxing
    The United States Boxing Commission Act fails to regulate 
television networks and cable and satellite service providers (herein 
collectively referred to as ``networks''). While, on the surface, 
networks appear to only broadcast boxing matches to a viewing audience, 
in fact, they play a much larger role in the sport of boxing. They are 
actively involved in the business of promoting fights and enter into 
long term contracts with boxers, requiring them to fight only for the 
subject network and only against opponents that they approve.
    The networks dictate the dates of the bouts and the amount that 
will be paid to the boxers for each fight. Additionally, they require 
that certain bouts be held for certain titles and have provisions in 
their contracts stipulating that certain belts be at stake for them to 
finance a show. Furthermore, the networks select the opponents of their 
boxers under contract without regard to the rules and ratings of 
sanctioning organizations. Sanctioning organizations have rules to 
insure the orderly defense of titles and to make sure that those boxers 
who have earned the right to fight for the title, that is, who are in a 
``mandatory'' position, are allowed to fight for the title within a 
specified time frame. The ``mandatory'' may not be the media darling 
and the network may refuse to buy the fight required by the 
organization's rules. Finally, networks derive huge sums of money from 
professional fights, especially on high priced, pay-per-view bouts. 
Absolving networks from a regulatory licensing structure of boxers and 
boxing personnel would be detrimental to positive boxing reform.In 
addition to the changes outlined above, the IBF and WBA believe that 
the Committee should also consider:

1. Whether the federal government really wants to ``intervene in civil 
        actions'' [Section 7 (c)].
    The United States Boxing Commission Act would allow the United 
States Boxing Commission to intervene in civil actions on behalf of the 
public interest. Federal courts and state courts have rules governing 
permissive intervention in lawsuits. If successful, on a motion to 
intervene, the United States would become a party to the litigation. 
Litigation is costly and time consuming. What is in the ``public 
interest'' is open to interpretation. The government's objective can be 
met by filing an amicus brief in the court on behalf of the public as 
opposed to actually becoming a party on the lawsuit.

2. How can the United States Boxing Commission Act help to assure that 
        the Internal Revenue Service (IRS) and state governments are 
        not cheated on the taxes that they collect from boxing matches 
        held in their jurisdictions?
     Over the past few years, some fighters have begun to understate 
their total compensation for a fight in the official bout agreements 
that they file with the state boxing commission where the fight is 
held. In some instances, fighters are not reporting millions of dollars 
that they are earning. If this money is not being reported to the 
states, it is likely that it is not being reported to the IRS either. 
This impacts not only state and federal government revenues, but the 
sanctioning organizations as well which are not informed of the true 
purses and, thus, cannot collect the proper sanctioning fees. Any 
action that the Committee could take to correct this problem would not 
only be in the best interest of government, but also in the interest of 
the business.
    The IBF and WBA appreciate the work of the Committee and its 
interest in improving the sport of boxing. While we do not believe that 
it is necessary to create a new federal agency to oversee the 
regulation of boxing, we believe that steps can be taken to improve the 
sport. Since the passage of the Muhammad Ali Boxing Reform Act (H.R. 
1832) in 2000, the IBF and WBA have taken a lead role in working to 
maintain the integrity of the sport and in addressing problems within 
the sport. We will continue in these efforts and ask that you to work 
with us to bring the boxing industry together to address its problems, 
as other sports do, before creating a new federal agency. Together we 
can improve the sport for boxing participants, boxing personnel and 
boxing fans around the world.
                               Appendix A
                                  Smith Alling Lane
                                             Washington, DC
                                                        May 5, 2005
Committee on Energy & Commerce
United States House of Representatives
Washington, D.C. 20515

Re: Invitation--Issues in Professional Boxing

    Dear Committee Members and Staff: The International Boxing 
Federation (IBF) would like to invite you to a session entitled The 
Future of Professional Boxing during the IBF Annual Convention on 
Thursday, June 3rd from 3:00-6:00 p.m. at the Argent Hotel in San 
Francisco, California.
    The purpose of this session will be to discuss improvements that 
can be made within the sport of boxing, various policy issues, and 
models for regulation, including Senator McCain's proposal to establish 
a National Boxing Commission (S. 275). Specific topics for the policy 
session will include:

 How can the sport of boxing be improved?
 Is congressional legislation necessary?
 Do we need a national commission?
 Can the boxing industry come together to improve the sport?
    The outcomes of this historic meeting could drastically affect the 
future of professional boxing. During the meeting, boxers, promoters, 
state commissioners, sanctioning bodies, officials and other boxing 
personnel will discuss the status of the boxing industry and develop 
recommendations for improving the sport.
    We would be honored to host any congressional delegate(s) and ask 
that you please RSVP for this event by calling Noah Reandeau at (253) 
627-1091.
            Sincerely,
                                                      Noah Reandeau
                               Appendix B
                                  Smith Alling Lane
                                             Washington, DC
                                                        May 8, 2005
Norman Deck
Assistant to Deputy Director
Office of National Drug Control Policy
750 17th Street, N.W.
Washington, DC 20503
    Dear Mr. Deck, The International Boxing Federation (IBF) and World 
Boxing Association (WBA) would like to express their interest in 
attending the White House's proposed summit on steroid use by athletes.
    While marijuana and cocaine are the primary sources of substance 
abuse among boxers, steroid use is a growing concern. Unlike marijuana 
and cocaine, which are used for their addictive properties, steroids 
are used to gain a competitive advantage. This advantage is unfair to 
boxers who abide by the rules, is detrimental to the health of the 
steroid user, is often against the law, sets a bad example for the 
public, and can lead other competitors to begin using to ``keep up'' 
with the competition.
    The IBF and WBA support President Bush's efforts to address steroid 
use by athletes. Both professional boxing sanctioning organizations are 
committed to maintaining the integrity of the sport of boxing and care 
about the health and welfare of boxers. Therefore, they are committed 
to finding solutions to this growing problem.
    If the IBF and WBA were invited to the proposed summit, they could 
present information on the problem of steroid use in boxing and efforts 
that have been taken to address steroid use within the sport. 
Additionally, they could learn about the actions that other sports have 
taken to address this problem. Finally, after the summit, the 
organizations could meet with industry representatives to discuss any 
additional measures that could be taken to protect the health and 
safety of fighters.
    Should you have any questions or require any additional 
information, please do not hesitate to contact me. I may be reached at 
(253) 627-1091.
    I look forward to hearing from you.
            Sincerely,
                                                      Noah Reandeau

    Mr. Stearns. All right. That is good. Mr. Stevens, welcome.

                 STATEMENT OF RON SCOTT STEVENS

    Mr. Stevens. On behalf of the State of New York and 
Governor Pataki, I would like to thank Chairman Cliff Stearns 
and members of the House Subcommittee on Commerce, Trade, and 
Consumer Protection for inviting me to speak on reform and 
Federal oversight of the sport of professional boxing.
    Boxing is being glamorized today on reality television 
shows in the movies, but there are no Clint Eastwoods or 
Sylvester Stallones in the timeworn gym in poor neighborhoods 
where young boxers dream the dream. Their chances of 
succeeding, of becoming a contender, no less a champion, face 
enormous odds. Nevertheless, their numbers are great; just look 
at the crop of Golden Glove entries each year. The New York 
Golden Gloves had 660 entries, up from 600 a year ago, with 
most hoping 1 day to turn pro--so many who dream. Some are 
skilled, and some are not so skilled. Ladies and gentlemen, 
boxing is, figuratively speaking, a risky, bare-knuckled sport. 
That is why those of us who are charged with regulating it have 
no room for error, because we are dealing with life and death 
during every 3-minute round.
    For the past 25 years, I have covered the waterfront when 
it comes to professional boxing, primarily as a matchmaker and 
a promoter. Based on my experience, Governor Pataki appointed 
me as the Chairman of the New York State Athletic Commission on 
June 10, 2003. I have learned much over the period of time that 
I have been involved in professional boxing, and I would like 
to take this opportunity to share some of my observations with 
all of you.
    A Federal bill to protect the general welfare of boxers and 
to ensure nationwide fairness in the sport of professional 
boxing is a noble idea whose time has come, but if I may, 
please allow me to repeat the words of the former 3-time 
heavyweight champion, Muhammad Ali, who said on September 9, 
2004, before this same subcommittee, ``there is nothing wrong 
with boxing that we in boxing cannot fix.''
    I would like to add that there are at present many 
competent and hard-working commissions, both big and small, who 
should be given a voice in this process. First, I would 
advocate minimum national standards for medical exams. However, 
nothing should prohibit any State from enforcing local 
standards that exceed the minimum requirements. In New York, 
for example, a boxer must pass several medical exams before he 
or she is permitted to box, such as an MRI, an ophthalmologic 
exam, an EKG, a full physical exam, and blood screening for 
HIV, hepatitis B surface antigen, and hepatitis C virus 
antibody. A final pre-fight, mini-physical is also performed at 
the venue, prior to the bout. Only Nevada has a similar 
standard. It should be noted that States like New Jersey and 
Connecticut substitute CAT scans for MRIs--they can use either 
one--and that conforms to the Association of Boxing 
Commission's medical recommendations.
    Conversely, to my knowledge, 12 States only require pre-
fight physicals and nothing else. This often leads to forum 
shopping, as Dr. Schwartz mentioned, by boxers and their 
handlers who avoid well-regulated jurisdictions, knowing their 
boxers might not pass the medical exams previously mentioned. 
This could possibly compromise the boxer's health and safety.
    If medical records can be centrally controlled, maintained, 
and disseminated--a national data base, if you will--a powerful 
tool will have been created, which could minimize the risk of 
injury to boxers. Most importantly, this will dramatically 
reduce the chances of a boxer developing putralistic dementia, 
also known as punch-drunk syndrome.
    Second, in the name of fair play, rules and regulations 
must not deviate from State to State. Since rules do not 
deviate in other major sports, then why should they in boxing? 
Questions often rise among licensees such as is there a 
mandatory 8 count in New York? Is there a standing 8-count in 
California? Is there a 3-knockdown rule in Nevada? Can a boxer 
be saved by the bell in Texas? Uniform rules must be adopted 
and enforced.
    Third--and this is a major, probably more major than--like 
I say here, it is the issue--I would like to address the issue 
of the business of boxing, but that discussion would take a 
lifetime.
    Therefore, let me just say, for now, that all licensees, 
whether they boxers, promoters, managers, trainers, seconds or 
matchmakers, are entitled to have their right enforced without 
them having to go to civil court to address perceived wrongs; 
they don't in most other sports. There are a number of ways 
boxing licensees can be protected from the heavy burden of 
legal fees and the time consideration of litigation. An 
effective form of arbitration and mediation as well as 
standardized contracts should be provided, as they are in other 
major, professional sports. Also, it should be noted that New 
York has the discretion to recognize and enforce out-of-state 
findings by way of comedy. I would recommend that comedy be 
mandatory, nationwide.
    Fourth, a national commission must try to find a way to 
create a pension fund for boxers and other licensees who make 
boxing their full-time profession. Athletes in other 
professional sports are protected. Managers are protected; 
coaches are protected; scouts and umpires are protected. It can 
be done, and it must be done in some way and in some form.
    Fifth, with all due respect to this committee, I think 
there is another organizational structure that should be 
considered. I agree with the concept of 3 commissioners, but 
unlike the current model, I strongly urge that there should be 
a full-time chairman for commissioner. In New York, for 
example, the commission consists of 3 members who are appointed 
by the Governor, with the Governor designating one of the 
members as a full-time chairman. All are appointed for terms of 
3 years.
    Under the New York State statute, the chairman can direct 
the administrative functions of the commission and still 
maintain his or her full-policy authority as a commissioner. In 
essence, the chairman in New York combines your bill's 
executive director's responsibilities with that of a full-time 
chairman or commissioner. This gives the other 2 commissioners 
and inside look at the day-to-day operation of the commission 
when voting on a potentially critical issue. Also----
    Mr. Stearns. Mr. Stevens, just have you start to sum up, if 
you can.
    Mr. Stevens. Please--it also creates an environment for 
well-informed and decisive action.
    I would just like to conclude by saying that the talk of--
about a national commission has been before us for many years, 
and the talk in the boxing community, amongst the rank and 
file, has existed probably pre-the Federal Government becoming 
interested in a Federal Commission or a national commission. I 
am surprised that the promoters from years ago--the Tex 
Rickerts and the promoters on up--didn't think of creating a 
commission like the other sports do; but perhaps because of the 
legislatures empowering these commissions, I guess they knew 
that they wouldn't have been able to.
    But in any event, I would like conclude by saying that, one 
way or another, I think it is time to make a decision so that 
this cloud that exists over professional boxing on whether or 
not we are going to have a national commission or not can 
finally be determined.
    I want to thank the Chairman.
    [The prepared statement of Ron Scott Stevens follows:]

   Prepared Statement of Ron Scott Stevens, Chairman, New York State 
                          Athletic Commission

    On behalf of the State of New York and Governor George Pataki, I'd 
like to thank Chairman Cliff Stearns and the Members of the House 
Subcommittee on Commerce, Trade and Consumer Protection for inviting me 
to speak on the subject of reform and federal oversight of the sport of 
professional boxing.
    Boxing is being glamorized today on reality television shows and in 
the movies. But there are no Clint Eastwoods or Sylvester Stallones in 
the time-worn gyms that populate poor neighborhoods where young boxers 
dream the dream. Their chances of succeeding, of becoming a contender 
no less a champion, face enormous odds. Nevertheless, their numbers are 
great. Just look at the crop of Golden Gloves entries each year. The 
New York Golden Gloves had 660 entries this year, up from 600 a year 
ago, with most hoping one day to turn pro. So many who dream. Some are 
skilled, some are not so skilled. Ladies and gentlemen, boxing is, 
figuratively speaking, a risky, bare-knuckled sport. That is why those 
of us who are charged with regulating it have no room for error because 
we are dealing with life and death during every three-minute round.
    For the past 25 years, I've covered the waterfront when it comes to 
professional boxing, primarily as a matchmaker and promoter. Based on 
that vast experience, Governor Pataki appointed me as Chairman of the 
New York State Athletic Commission on June 10, 2003. I have learned 
much over that period of time and I would like to take this opportunity 
to share some of my observations with you.
    A federal bill to protect the general welfare of boxers and to 
ensure nationwide fairness in the sport of professional boxing is a 
noble idea whose time has come. But if I may, please allow me to repeat 
the words of the former three-time heavyweight champion Muhammad Ali 
who said on September 9, 2004, before this same committee, ``There is 
nothing wrong with boxing that we cannot fix.'' I would like to add 
that there are, at present, many competent and hard-working 
commissions, both big and small, who should be given a voice in this 
process.
    First, I would advocate minimum national standards for medical 
exams. However, nothing should prohibit any state from enforcing local 
standards that exceed the minimum requirements. In New York, for 
example, a boxer must pass several medical exams before he or she is 
permitted to box such as an MRI, an ophthalmalogic exam, an EKG, a full 
physical exam and a blood screening for HIV, Hepatitis B and C. A final 
pre-fight mini-physical is also performed at the venue prior to the 
bout. Only Nevada has a similar standard. It should be noted that 
states like New Jersey and Connecticut substitute CAT Scans for MRIs 
which conform to the Association of Boxing Commission's medical 
recommendations. Conversely, to my knowledge, twelve states only 
require pre-fight physicals and nothing else. This often leads to forum 
shopping by boxers and their handlers who avoid well regulated 
jurisdictions knowing their boxers might not pass the medical exams 
previously mentioned. This could possibly compromise the boxers' health 
and safety.
    If medical records can be centrally controlled, maintained and 
disseminated, a powerful tool will have been created which could 
minimize the risk of injury to boxers. Most importantly, this will 
dramatically reduce the chances of a boxer developing pugilistic 
dementia, also known as ``punch-drunk'' syndrome.
    Second, in the name of fair play, rules and regulations must not 
deviate from state-to-state. Since rules do not deviate in other major 
sports then why should they in boxing? Questions often arise amongst 
licensees such as, ``Is there a mandatory eight count in New York? Is 
there a standing eight count in California? Is there a three knockdown 
rule in Nevada? Can a boxer be saved by the bell in Texas?'' Uniform 
rules must be adopted and enforced.
    Third, I'd like to address the issue of the business of boxing. But 
that discussion would take a lifetime. Therefore, let me just say for 
now that all licensees, whether they be boxers, promoters, managers, 
trainers, seconds or matchmakers are entitled to have their rights 
enforced without them having to go to civil court to address perceived 
wrongs. There are a number of ways boxing licensees can be protected 
from the heavy burden of legal fees and the time considerations of 
litigation. An effective form of arbitration and mediation, as well as 
standardized contracts, should be provided as they are in other major 
professional sports. Also, it should be noted that New York has the 
discretion to recognize and enforce out-of-state findings by way of 
comity. I would recommend that comity be mandatory nationwide.
    Fourth, a national commission must try to find a way to create a 
pension fund for boxers and the other licensees who make boxing their 
full-time profession. Athletes in other professional sports are so 
protected as are managers, coaches, scouts and umpires. It can be done 
and it must be done, in some way and in some form.
    Fifth, with all due respect to the Committee, I think there is 
another organizational structure that should be considered. I agree 
with the concept of three commissioners but unlike the current model, I 
strongly urge that there should be a full-time chairman or 
commissioner. In New York, for example, the commission consists of 
three members who are appointed by the Governor with the Governor 
designating one of the members as a full-time Chairman. All are 
appointed for terms of three years. Under the New York State statute, 
the Chairman can direct the administrative functions of the commission 
and still maintain his or her full policy authority as a commissioner. 
In essence, the Chairman in New York combines your bill's executive 
director's responsibilities with that of a full-time commissioner. This 
gives the other two commissioners an inside look at the day-to-day 
operations of the commission when voting on a potentially critical 
issue. It also creates an environment for well-informed and decisive 
action.
    Let me conclude by saying that dialogue about creating a national 
boxing commission has been going on for some time with boxing's rank 
and file debating this issue for just as long. Therefore, in the best 
interests of the sport, I believe this issue should be finally 
resolved. The status quo inadvertently casts a shadow over many state 
commissions by implying inadequate oversight. That often is not the 
case and I am sure that this is not what was ever intended.
    Again, I would like to thank Chairman Stearns and the Members of 
this Subcommittee for providing me with this opportunity to testify.

    Mr. Stearns. Thank you, Mr. Stevens. I shall open up with 
questions.
    You know, the feeling I have about this is--we have been 
talking about it, and I think it is--I think it can be summed 
up by--when we had the hearing, the Pennsylvania State 
Commissioner stated that it wasn't so much that he wanted a 
Federal Commission, but rather that we need one now. And I 
think that is sort of what I sense here. And let me just say 
from the outset: we have a bill. We have put it down. But we 
are willing to work with you in any way to help move this 
along.
    And as you know, any piece of legislation, once it starts 
in a hearing like this, it gets marked up; there are 
amendments. And then, in the full committee, there is 
amendments. Then it goes to floor; there is amendments. And 
there is in the Senate the same process, and then it goes to 
conference, so we are a far cry from anything here. So we are 
willing to work with you, but I sense, Ms. Torres, that you 
have some reservation about the bill. But when you look at this 
industry, and you hear both Dr. Schwartz and you hear Mr. 
Stevens talking about all of their experiences, do you object 
to the premise--the basic premise of having a judgment by a 
commission that carries national enforcement.
    I mean it seems like the testimony we have had has said 
that it would be nice to have a Federal Commission some--for 
some place to go and some national standards for health and a 
place where you could go for appeal. I mean, doesn't that 
appeal to you, consider that sport--boxing is the only major 
sport not to have a commission. I mean that, alone, it would 
seem to me, shows that we have been remiss in not setting up 
this Federal Commission, and no States--as Mr. Schwartz has 
pointed out, no States have adopted minimum standards, and they 
all just shop State to State. I mean, doesn't that all just 
make you realize that maybe the time has come for a boxing 
commission?
    Ms. Torres. I think the time has clearly come for 
standardization of----
    Mr. Stearns. Well, how are you going to get it without any 
Federal----
    Ms. Torres. Well----
    Mr. Stearns. [continuing] Commission?
    Ms. Torres. I guess part of the concern is that while other 
sports have commissions----
    Mr. Stearns. Yes?
    Ms. Torres. [continuing] they are part--they are not a 
Federal agency. I can see that in this bill it looks as if the 
portions having to do with the investigative and prosecutorial 
function of this commission were perhaps a little more clearly 
thought out than what, exactly, will be standardized. The IBF 
and the WBA are not totally against standardization of 
practices or medical----
    Mr. Stearns. Particularly with health.
    Ms. Torres. Pardon?
    Mr. Stearns. Particularly with health.
    Ms. Torres. Particularly regarding health.
    Mr. Stearns. Yes.
    Ms. Torres. I think you are in a difficult situation here 
because States have statutes that actually regulate certain 
things having to do with boxing. How----
    Mr. Stearns. So you would approve of a non-Federal 
commission, but a commission. You would like to see a boxing 
commission, but a--not be a Federal----
    Ms. Torres. I would like it not to be a Federal agency with 
some of these superior powers.
    Mr. Stearns. Yes. And why hasn't the boxing industry done 
that?
    Ms. Torres. Perhaps because they haven't been able to get 
on the same page. I think that the work of the----
    Mr. Stearns. But wouldn't that tell you----
    Ms. Torres. ABC----
    Mr. Stearns. Yes.
    Ms. Torres. The ABC has come a long way. They have adopted 
rules for the conduct--for conducting bouts--which we all get 
to hear Harold Letterman read frequently--and they have adopted 
some standards for ratings criterion.
    Mr. Stearns. But you realize that you can't get 
consistency. And we had a GAL report in 2003 that said that, 
you know, basically they couldn't get any consistencies across 
8 States and 2 tribal boxing commissions. There was no 
assurance that the professional boxers were receiving the 
minimum protection established by Federal Law, just the 
minimum.
    Ms. Torres. The minimum medical and safety protection?
    Mr. Stearns. Yes.
    Ms. Torres. That is----
    Mr. Stearns. So----
    Ms. Torres. That is a major problem.
    Mr. Stearns. Yes, I mean----
    Ms. Torres. I don't know how you are going to deal with all 
of the different legislation in the different States.
    Mr. Stearns. I can tell you, having dealt with legislation 
before, all of these questions come up. But with good minds 
like you and others, we somehow work through them. Let me ask 
Dr. Schwartz. I see on the television and also in different 
places these extreme professional sports in wrestling and 
boxing, where they go in with nothing on. I mean it is just the 
shorts and their own fists, and they just go at it until 
somebody just calls uncle, and it is--sometimes, there is major 
bodily injury. Is anything regulated in that? Or is that just a 
free-for-all, and it is--I mean what is your feeling about 
that?
    Mr. Schwartz. Well, such sport, like the Ultimate Fighting 
Championship----
    Mr. Stearns. Yes.
    Mr. Schwartz. They kind of have their act together; but 
regardless of who comes into my jurisdiction, we still require 
the same medical requirements, whether it is boxing, whether it 
is kickboxing or ultimate fighting. They are required to get 
the same medical tests. We have an ambulance onsite. We have 
paramedics. I could land a helicopter if I need to. I am 
actually very fortunate because my commission listens to what I 
feel are the most important requirements.
    However, it is very, very different in other jurisdictions, 
as I stated in my testimony. Some of them don't even have 
ambulances. Some of them have doctors who aren't even 
practicing medicine. Some of them don't even have doctors. So 
as far as those other sports, we look at intent; we don't look 
at outcome. But boxing is actually less dangerous than football 
or auto racing; however, because the intent is to injure the 
opponent, we look at that. However, with these other sports, if 
they are regulated in a similar manner and are able to meet our 
medical requirements, then I don't see a problem with it.
    Mr. Stearns. Just a closing: Mr. Stevens, would you support 
the bill if there was some changes in it? I mean can I put you 
on record as for it or against with--you know, some----
    Mr. Stevens. I am for a national boxing commission. I--you 
asked Dr. Schwartz a question. If I might----
    Mr. Stearns. Sure.
    Mr. Stevens. Or maybe it was Ms. Torres. You know, I 
believe that--and I am not an attorney--but an athletic 
commission is, to my knowledge, a quasi-judicial body that is 
empowered by the legislature to, in this particular instance, 
regulate boxing. The other sports didn't have that fence to 
climb. They weren't created by a legislature to regulate the 
sport, so they could--the George Hallases in football and the 
early pioneers of baseball and basketball and hockey--they 
could create a league, a league office, without having to clear 
it through the government.
    I think that is why boxing doesn't have or didn't have a 
national commission for all of these years. All of the States 
that have commissions were all empowered by the State 
legislature because--I would imagine the reason they did that 
is because to fight with another person is to commit an 
assault. At the least, touching of another in anger constitutes 
an assault. So in order to make that legal, they needed to--and 
there were probably other reasons. Maybe there was a gambling 
prohibition or whatever--but I believe it was really about an 
assault. So in order to make that assault acceptable, they 
needed to create a boxing commission, an athletic commission. 
And then, I don't think that these promoters or the managers of 
yesteryear, the ones we read about, the famed--the fabled ones 
like the Doc Kerns, who was Dempsey's manager, or Tex Rickert, 
who was the great promoter out of Madison Square Garden back in 
the 1920's and 1930's, or even the Teddy Brenners, the great 
matchmakers out of the Garden--they probably couldn't create a 
national commission; that is why we don't have one--my opinion. 
I think a lot of boxing people, if they thought that they could 
have created a commission in the 1940's or 1950's, they would 
have done it. Would I support a national boxing commission? I 
think Ms. Torres brings up a good point, that this particular 
bill is very general, and I think some of the other bills were 
too specific. I think, having been a promoter and matchmaker 
for most of my professional career, in terms of Mrs. Torres's 
testimony with the sanctioning organization, sanctioning 
organizations serve a very vital purpose.
    Mr. Stearns. My time is up, so----
    Mr. Stevens. Okay.
    Mr. Stearns. [continuing] I am going to have to----
    Mr. Stevens. But I just wanted to end that with saying 
that--as long as they follow the rules and regulation.
    Mr. Stearns. So I will put you down as a maybe for the 
bill.
    Mr. Stevens. Well, you could--well, like I said, I think 
that----
    Mr. Stearns. You are supporting it?
    Mr. Stevens. I would support your bill, yes.
    Mr. Stearns. Okay. That is all I need to know. Okay?
    Mr. Stevens. All right.
    Mr. Stearns. Ranking Member Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. And I want to 
reiterate what you said, essentially that this is a work-in-
progress; and therefore, I really appreciate this very 
constructive testimony today. And I know that, Ms. Torres, if 
we are going to put up a chart of who is for and who is against 
that you began your testimony with your reasons that you are 
not for it, but then went on--and I appreciate that very much--
to list the suggestions, that if we do go forward, what are 
those things that ought to be in a bill. And I truly do 
appreciate that.
    I wanted to ask you a couple of questions. I think--let me 
just get your response to the issue of forum shopping. I mean 
how can one ignore the fact that this is a serious problem.
    Ms. Torres. Do you mean forum shopping by the boxer in 
order to get licensed in a State? Is that what----
    Ms. Schakowsky. In order to prevent someone who should not 
fighting in one State, or could not be fighting in one State, 
from going to another, shopping around because there is lower 
standards, weaker medical exams, et cetera.
    Ms. Torres. I think the only way to address it is to have 
uniform medical standards from State to State. I mean there is 
an example this very week of a boxer being licensed in 
Missouri, and then using that to go fight in Utah, when New 
York and New Jersey, and California, and Pennsylvania, and 
Nevada probably would not have licensed him. So it happens; it 
happens all the time; and it should not be allowed to happen. I 
think the idea from the WBA--are very much in support of 
uniform medical and safety standards. I just saw that sort of 
put on a back burner in this version of the bill. I would like 
them to be brought to the forefront.
    Ms. Schakowsky. Okay. Good. The other--you alluded to--I 
would like you to enhance a little bit. You talk about your 
position on the networks being covered under the U.S. Boxing 
Commission. Should networks be treated as promoters? What is 
your view on that?
    Ms. Torres. Our view--and this from--on behalf of both of 
these organizations--is that they should be licensed if you are 
doing a general licensing structure of the entire industry, 
whether you call them promoters or managers or matchmakers, 
because they do a little bit of everything. The past few years, 
they have become very pervasive in dictating who a boxer fights 
and who a boxer doesn't fight, and they enter into contracts 
with a boxer. So if we are going to regulate managers and 
promoters that enter into contracts with boxers, there is no 
reason to exclude the networks, who also have 3- and 4-belt, 
long-term contracts with the boxers.
    Ms. Schakowsky. And is this a growing area, where----
    Ms. Torres. Yes, it is.
    Ms. Schakowsky. Yes.
    Ms. Torres. It is.
    Mr. Schakowsky. Okay. And what do you think about big 
hotels which host fights. Is there a role there? Or no?
    Ms. Torres. Not that I see that would need----
    Ms. Schakowsky. Okay.
    Ms. Torres. That would--I can't think of anything off the 
top of my head. It is--that would actually just be the venue, 
be it a hotel or an arena.
    Ms. Schakowsky. Okay. Okay. I wanted to comment on Mr. 
Stevens--and I think it was you who said that you would not 
want, in our bill, to limit States that might have more 
stringent standards. Did you talk about that? The----
    Mr. Stevens. Say that again, please.
    Ms. Schakowsky. That you would not want Federal legislation 
to prohibit States that may have more stringent standards from 
enforcing those. I wondered if you wanted to speak at all about 
the rights of State commissions----
    Mr. Stevens. Well, I really--reiterated your own words in 
the United States Boxing Commission Act, where you talk about, 
I believe, that if a national commission has minimum standards 
that that would not preclude any State from having standards 
that go beyond those minimum standards, and that they should--
the States should, then, be able to impose those standards.
    Ms. Schakowsky. So you were just--I thought you found 
something in the legislation that you though might preclude you 
from doing what you needed to do.
    Mr. Stevens. No. You--actually----
    Ms. Schakowsky. Okay.
    Mr. Stevens. [continuing] I parroted what you said. I 
agreed with that. Like for example, the--if I might--Nevada, a 
few years ago, they had a physical examination, an eye 
examination, and ophthalmological exam, dilated eye, and they 
had blood tests. Subsequent to a few years ago, they have gone 
to an EKG and they have gone to an MRI. Now, let us say for 
example, the Federal legislation required a physical, an eye 
exam, and blood work, but New York or Connecticut, or Nevada 
wanted to do additional testing. I don't believe there should 
be a prohibition against that. It is just----
    Ms. Schakowsky. But----
    Mr. Stevens. [continuing] for the safety of the boxer.
    Ms. Schakowsky. Okay. Good. Thank you, Mr.--Dr.--oh, I 
guess my time is up.
    Mr. Stearns. Yes.
    Ms. Schakowsky. Okay. Thank you.
    Mr. Stearns. Thank you, my colleague. Ms. Cubin?
    Ms. Cubin. Thank you, Mr. Chairman. I would like to start 
by addressing some questions to Dr. Schwartz. Your expensive--
or extensive--maybe expensive, too--experience as a ringside 
physician has brought you face to face with just how dangerous 
this sport is. In your opinion, is the 4-year licensing 
requirement sufficient to ensure that athletes are maintaining 
a safe and adequate physical condition or do you think that 
should be shortened or lengthened?
    Mr. Schwartz. I think the medicals need to be shortened. I 
mean right now, for example, I think a yearly--a minimum of a 
yearly physical exam is necessary by the boxer's own, private 
physician, because they know them best. I think the blood tests 
should occur at a minimum of twice year, meaning HIV, hepatitis 
B, surface-antigen hepatitis c. I think the MRIs and CAT scans 
are debatable as long as we have a baseline whether we do that 
every 1 to 2 years. The eye exams, I believe, have to be done 
on a yearly basis.
    But more important than that, I think any time a fighter is 
injured--right now, some of the doctors, including myself, have 
the right to suspend the individual and require additional 
testing. That way, if there was a brain injury, for example, we 
wouldn't say, you had a CAT scan, you know, a few months ago, 
and we are going to still use that CAT scan; we are going to 
send them for more sophisticated tests, including neurological 
exams, for example.
    Ms. Cubin. And how likely is a doctor to actually do that. 
I mean I know as much about boxing as I have seen in movies and 
television, so forgive my naivete. But how likely is a doctor 
to do that if the situation is marginal? I mean is he going to 
throw the towel in--which is 1 thing I know----
    Mr. Schwartz. Yes.
    Ms. Cubin. [continuing] or not?
    Mr. Schwartz. You mean as far as----
    Ms. Cubin. I mean if it is a marginal situation whether a 
doctor will disqualify someone from fighting because he 
suspects that there may be a dangerous condition.
    Mr. Schwartz. Well, previous Federal legislation formed 
Fight Fax, which is a national suspension agency, so when I 
suspend somebody, they can't fight anyplace in the United 
States, as long as that State is following the guidelines. As 
far as whether or not that boxer should compete again, that is 
whether my association, hopefully, helps, because what we try 
to do is educate doctors. There is a lot of doctors who really 
don't understand boxing medicine. You don't grab a----
    Ms. Cubin. Right.
    Mr. Schwartz. [continuing] local, emergency-room doctor and 
say, hey, listen. We will give you a ringside seat; enjoy 
yourself. It is identifying things before they happen----
    Ms. Cubin. Yes.
    Mr. Schwartz. [continuing] before the catastrophe occurs. 
This is a dangerous sport, inherently dangerous. People are 
going to get injured; people are going to die. But if we do the 
best that we can, we can ignorantly minimize that risk.
    Ms. Cubin. I am going to switch to Ms. Stevens for just a 
second--excuse me--Ms. Torres for just a second. Forgive me. 
And then, I want to come back to you if I have time.
    But you state that--you stated in your testimony that there 
is need for a pension plan for boxers. In view of the fact that 
their career life is so short, what kind of a pension plan do 
you recommend? Or how would that work? I hear people complain 
all the time--I mean all the time--about the exorbitant wages 
that are paid to professional athletes. I mean big time. But 
when you consider that they are--you know, that their career 
might be 5 years--or 2, even, maybe 10, maybe that is one of 
the reasons that--or part of the reason that these exorbitant 
salaries are paid. What do you recommend for boxers?
    Ms. Torres. Well, first of all, that was not my testimony, 
but I----
    Ms. Cubin. Oh.
    Ms. Torres. It was Mr. Stevens.
    Ms. Cubin. Was that yours, Mr. Stevens?
    Ms. Torres. But I would like to answer it anyway.
    Ms. Cubin. Would you both, please?
    Ms. Torres. Okay. First of all, the IBF does have a pension 
program. It is run, almost, as a mandatory TO planner/401K 
plan. For boxers competing in title fights, unless they show us 
that they have a similar plan of some sort, the IBS collects 2 
percent of their purse, and it is put into a plan that is 
structured by a financial institution. And of course, the rules 
for taking the money out are very different because of the 
short life span of the boxer's career. They have to be in the 
plan a certain number of years. They have to be a certain age, 
but the age is not 59\1/2\. It is more like 35. So the IBF does 
have a pension program. When I hear that----
    Ms. Cubin. That is just for title fights?
    Ms. Torres. Yes, it is.
    Ms. Cubin. So other boxers, then, don't have----
    Ms. Torres. Well, this is----
    Ms. Cubin. [continuing] that kind of pension.
    Ms. Torres. And like I said, it is an enforced 401K-type 
plan. Other boxers can set up their own, but we don't force 
them to. It is almost a big brother attitude that we are 
taking, and we have been criticized for it. I don't know how 
one would structure a pension plan for boxers, other than 
perhaps, you know, having the boxer contribute some, maybe the 
promoter. I don't know.
    Ms. Cubin. May Mr. Stevens take a stab at that, too?
    Mr. Stearns. You have extra 3 minutes because you waived 
your opening statement.
    Ms. Cubin. That is right. I do.
    Mr. Stevens. I don't even know--I will get some minutes 
back. I don't think it will take that long. I really don't know 
what the format would be. That is not my area of expertise. But 
I do know, having been around this business and sport for the 
amount of time I have been around it, that is does need a 
pension plan. And I--like I said in my testimony, it needs it 
for all of the licensees that make boxing a full-time 
profession. If I might--Marvin Mitchell in baseball, when they 
were talking about free agency and different things that most 
sport didn't have--and I think it was the--Kurt Flood was the 
first test case. He was a center fielder for the St. Louis 
Cardinals. And they got a label lawyer like a Marvin Mitchell 
to come in and to figure out how to apply things that modern 
athletes needed that the owners weren't giving them.
    Ms. Cubin. And who should be responsible to do that?
    Mr. Stevens. Well, I think----
    Ms. Cubin. Would it be the Federal Commission if they----
    Mr. Stevens. I think if there is----
    Ms. Cubin. [continuing] if the bill passes? Or who should 
it be--quickly please because----
    Mr. Stevens. I think if there were a national commission, 
that is one of the things that they should concern themselves 
with, is finding out from different experts how to make a 
pension system work. I don't think it is not doable. I think it 
is very doable. That money has to come from somewhere. It 
probably has to come from the licensees themselves--a good part 
of it.
    Ms. Cubin. Well, some of it, yes.
    Mr. Stevens. But they do that----
    Ms. Cubin. Dr. Schwartz----
    Mr. Stevens. [continuing] they do that in other industries.
    Ms. Cubin. Thank you. Dr. Schwartz, do you feel that the 
medical standards that are supported by the American 
Association of Ringside Physicians go far enough to protect the 
health of the boxers? And if you don't, what additional 
suggestions would you have?
    Mr. Schwartz. No, I think they do. I mean----
    Ms. Cubin. Okay.
    Mr. Schwartz. [continuing] this was put together by the 
Medical Advisory Board of the ABC and then ratified by the--our 
organization. Just let me say one quick thing: the kids pay for 
these tests. That is another issue. So we may charge $2,000 for 
the tests----
    Ms. Cubin. Yes.
    Mr. Schwartz. [continuing] and they may be getting $800 a 
fight. They got----
    Ms. Cubin. Well, that was another question----
    Mr. Schwartz. They got to fight 3 fights----
    Ms. Cubin. [continuing] I was going to ask.
    Mr. Schwartz. [continuing] to break even, so what I would 
like to see--and again----
    Ms. Cubin. Yes.
    Mr. Schwartz. [continuing] I am--my only goal here is the 
health and safety, but if there is some way that this 
legislation attaches--for example, a percent--to form medical 
centers to do this testing, so the kids don't have to pay for 
it, a lot of this will be much easier for them, and they could 
take home more of their money.
    Ms. Cubin. Yes. It seems like the structure of this sport 
is just very unhealthy compared to the structure of other 
professional sports. Ms. Torres--well, I am just about out of 
time, but you look like you wanted to answer the last question 
that--I guess you don't remember, so--and neither do I, so that 
is--I yield back.
    Mr. Stearns. All right. Gentlelady yields back. Ms. 
Blackburn is recognized.
    Ms. Blackburn. Thank you, Mr. Chairman, and thank you to 
each of you for taking your time to visit with us today and to 
have this discussion.
    Ms. Torres, I think I want to begin my questioning with 
you, and I think it was interesting that Dr. Schwartz mentioned 
baseball, football, and NASCAR. I come from Tennessee. We know 
a lot about NASCAR in Tennessee, and we know that if a driver 
races at Daytona and then goes over into Tennessee and races at 
Bristol--that NASCAR has some clear rules, some very clear 
rules, regarding the condition of the car and the equipment 
that is on the track, the health of the driver. And the Federal 
Government does not see a need to get involved because NASCAR, 
Major League Baseball, football do a pretty good job of taking 
care of this situation on their own.
    Now, I am going to--I want to go back to what you were--we 
were talking about the need for this and need for the 
legislation and what drives the need for the legislation, and I 
find it incredibly curious that you are here on behalf of the 2 
organizations. And why in the world could the sanctioning 
bodies not get together and agree on what is in the best 
interest of this sport and do their own non-Federal, national 
commission to instill and enforce medical standard and to 
create and maintain their own national data base of fighters 
and to address some of these contract issues.
    What are the constraints here, and why is--why are you 
choosing to not come together? Why do the organizations choose 
to not come together and do this? Why has it not happened?
    Ms. Torres. The other 2--the International Boxing 
Federation is headquartered in the United States. The World 
Boxing Association is headquartered in Venezuela. The World 
Boxing Commission is headquartered in Mexico City. They--the 
organizations that are outside of this country are in the 
process of understanding Federal legislation to begin with. 
They are studying the portions of the Muhammad Ali Act that 
they have to comply with, and they are complying with it.
    I think that even if the organizations were to get together 
and to come up with standards, they wouldn't have any way to 
enforce them in the various States. They wouldn't have an 
enforcement mechanism for certain things.
    They do have--the organization has rules for bouts; it has 
rules for certain medical testing; and it does enforce those.
    Ms. Blackburn. And you think, even though States like my 
State that has a boxing and racing commission, that you could 
not enforce those? They would not be enforced?
    Ms. Torres. I think there would a difficult time enforcing 
certain things. There are standards that the organizations have 
that are enforced and that--they have the ability to say, If 
you don't do X, Y, and Z, and you don't--for example, we have a 
second-day weigh-in, at this point, for champion fights to 
ensure that the boxer has not gained more than 10 percent over 
the contract weight, so that you don't have two fighters in the 
room with a, you know, 25-pound weight difference. And we have 
the ability to say to the boxer, If you do not go along with 
this, and you refuse to attend the second-day weigh-in, the 
fight will not be for our title. The fight will go on----
    Ms. Blackburn. All right. Thank you. Thank you. Dr. 
Schwartz, she has just mentioned, you know, the U.S., 
Venezuela, Mexico City--I read, recently, Mike Tyson is 
training in Australia. And I think we all remember--I know, 
growing up, I remember the Joe Frasier/Muhammad Ali Thriller in 
Manila fight--so do you think that it would be possible to 
enforce some of these regulations on an international basis? Do 
you think that we would be able to see enforcement, or are we 
going to see--if we try to enforce, are we going to see more 
matches leaving the U.S. and going to other countries, and then 
we will just be viewing that over TV here?
    Mr. Schwartz. Yes. The money is in the United States, so it 
is never going to be an issue that you are going to have that 
many of the--that many championship fights out of the country. 
The only way we could enforce the international aspect is 
through the sanctioning bodies. If the sanctioning body goes 
into an area--like for example in Thailand--and says that each 
boxer needs to have these medical tests, or else the fight 
doesn't go on, at the very least, the championship fights will. 
As far as the under-card, we don't have any control in that. 
What I am trying to do is, obviously, increase the number of 
people in my organization to include international members, but 
it is hard enough to do it in this country for me, than, you 
know, to go across the world and try to enforce these 
regulations at this time.
    Ms. Blackburn. Do other countries have national boxing 
commissions?
    Mr. Schwartz. Most do. England, United Kingdom, obviously 
has a very good boxing commission; but there are boxing 
commissions all around the world, and the sanctioning bodies 
could talk better about that, because they deal with them on a 
more regular basis.
    Ms. Blackburn. Okay. I thank you.
    Mr. Stevens, if a boxing commission was created, do you 
foresee an eventual progression where States that currently 
have active commissions--like in Tennessee where we have an 
active commission--do you see that they would disband those 
commissions? Or would that be your expectation that they would 
slowly start to place the sole responsibility for sanctioning 
boxing with the Federal Commission?
    Mr. Stevens. I think that the State commissions should 
retain their autonomy. The problem that we have is that we 
don't have any enforce mechanism, so they created--the Federal 
Government did when they created the Boxing Professional Safety 
Act and the Muhammad Ali Boxing Reform Act--they created 
minimum standards, and they sanctioned--or the sanctified the 
Association of Boxing Commissions to set up a lot of the 
standards we are now talking about. But the ABC has no 
enforcement capability, so the States don't feel completed to 
follow their guidelines. Many do; some don't. I think a 
national commission would want to use the States as a fabulous 
resource and let the States self-regulate and only jump in when 
they needed to. In other words, make the States comply with the 
minimum standards, whether it is about medical or about rules 
and regulation or whether it is about the business of boxing, 
and use those States to assist you. Without the States, you--I 
mean the job, the task, would be enormous. It would require 
hundreds of people, a tremendous amount of man-hours. We need 
the States. I think that if you consider a bill, the States 
should retain their autonomy. They should be used as a tool to 
assist the national commission and that, at least, the national 
commission would have enforcement power. That is what we are 
missing.
    Ms. Blackburn. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Stearns. I thank you. Mr. Murphy?
    Mr. Murphy. Thank you, Mr. Chairman, and I want to thank 
the panel for giving me a lot of information I didn't know 
about boxing. I appreciate that.
    Doctor, I would like to start with you. In terms of the 
things that your organization----
    Mr. Schwartz. Sure.
    Mr. Murphy. [continuing] and physicians are looking at in 
boxers to determine their suitability for a match, do you--you 
named a number of things that are done on a physical exam and 
reviewing things--et cetera for them. Are there any measures 
that are done to also look at other functions besides that that 
might show up on an eye exam or a physical exam--for example, 
behavioral learning, changes in them, too, over time?
    Mr. Schwartz. Yes. As the sport has evolved and our 
organization has been more active--and again, as a non-for-
profit organization, we don't have the funding, and there is 
not a lot of money in boxing to do research and studies, there 
are a select few number of individuals who are looking at this. 
We have one company, for example, that is putting things in 
gloves to measure the impact for us. We may be able to use that 
information over 10 to 15 to 20 years to determine how much 
impact one fighter could take before they develop brain damage. 
There is blood tests now that may indicate whether somebody is 
prone to develop dementia as they get older. We may be able to 
preclude those individuals from competing. There are neuropsych 
testing--following somebody when they start their career, a 
year later, 2 years later, and we start to see a decline, 
perhaps we could stop them from competing so that they don't 
develop this putralistic dementia down the line.
    Mr. Murphy. So for example, you would be able to with the 
neuropsych--and I am a psychologist, myself. You would be 
looking at such things as changing intellectual functioning, 
language functioning, visual/perceptual--other things of that 
nature that might affect someone's ability, when they are done 
with their boxing years, to even hold a job?
    Mr. Schwartz. Right. Well, as you probably know, there are 
so many different levels of neuropsych testing. Some of the new 
ones that are coming out actually could work with a Palm, and 
you could do it in a 5-minute or 10-minute exam. The problem 
is, without the standardization, without the enforcement power, 
and without the funding, we can't do these things. So then, 
once again, these fighters go off; they have their career for 
maybe 2, 5, or 10 years, and then 30, 40 years later, you hear 
that they are demented and living in a nursing home with no 
money. And it is wrong.
    Mr. Murphy. My--and like our concerns even about youth 
sports and concussions that children may receive and those 
issues.
    Now, let me ask this--and a question for all of the panel 
here. As in any sport, there is a lot of pressure to make 
money, not only for the individuals participating, but those 
who are the promoters, and obviously for media and other venues 
that may be hosting a match, and there is a lot of pressure 
among those. I am assuming media is going to put an event on 
either Pay-Per-View or broadcast, they would want events to be 
done in a certain way. And I am wondering, along those lines, 
when we have all of these multiple commissions throughout the 
States or the tribes, et cetera, is there enough power, enough 
authority, among the States to stand up to pressure from 
promoters and other forces to really follow by the rules in a 
way that assures the safety of the fighters? Any of you? Yes, 
Mr. Stevens.
    Mr. Stevens. I don't want to speak for the other State 
commissions, but in New York--I mean we are it. We--let me just 
go back a second.
    Generally, as a general rule, when a fight is televised, 
the promoter receives what is known as a rights fee, so the 
promoter who is licensed by whatever State the event is taking 
place in, he is paid a sum of money from the network, and he 
gives the rights to that network so that they can broadcast it.
    When a fight is brought to a particular site, especially a 
casino, the promoter is also hoping to get a site fee. And 
those are the two, basic revenue streams for a promoter, the 
rights fee and a site fee. When you hear the expression a club 
show, there is generally no site fee. That means the promoter 
is selling tickets. When he is at a casino, he gives up the 
right to sell tickets in exchange for a fixed amount of money.
    Mr. Murphy. My concern is with--I don't know what those 
site fees would be or what some of those other fees would be. 
What kind of levels are we talking about? If somebody is going 
to be broadcast, what would the promoter be getting there?
    Mr. Stevens. It could be anywhere from Fox SportsNet or 
ESPN.
    Mr. Murphy. Well, what kind of money would we be talking 
about?
    Mr. Stevens. You could--well, listen. EPSN, which a few 
years ago was paying $150,000 for what they call their ESPN-1 
International Show, $150,000. Eventually, they moved the boxing 
to ESPN-2, and they were paying approximately $60,000. And I 
have heard, as of late, that they have been asking the 
promoters to basically subsidize their rights fee, and I think 
it is down to about $15,000, and they are asking--this isn't as 
current information as you need; but we are in the ballpark. 
And they are asking them to subsidize some of the programming 
with sponsors.
    Mr. Murphy. I am just wondering, overall here, as we are 
looking at whether it is keeping States doing this or using a 
national commission here, if a value of the national commission 
is to have--as you mentioned there is not--maybe no 
enforceability with some of these State and tribal groups. Now, 
and what I am trying to find out is, will the Federal cloud be 
enough and are there instances where promoters and casinos and 
media is putting a lot of pressure on to, say, make the fight 
go on, even if someone isn't physically ready.
    Mr. Stevens. The Federal legislation would be enough, if--
when who--whatever group the Federal Government decides to make 
the commissioners or the executive directors, if there is 
enforcement of the action that they take, which would mean in 
many instances, spending money and having legal enforcement. If 
there is no enforcement, people are going to do what they do, 
knowing----
    Mr. Murphy. So right now----
    Mr. Stevens. [continuing] there is no repercussions.
    Mr. Murphy. Right now, Mr. Stevens--and Ms. Torres, I would 
like your responses, too. Right now, the way things exist with 
the States and tribes and without that kind of power of 
enforcement, is it possible, does it happen--or potentially 
happen--that there could be tremendous pressure that would 
still have boxers fighting who may not be ready, who, 
neuropsychologically, neurologically, physically, to go ahead 
and do this for the sake of money? Does this happen?
    Ms. Torres. Well, I am sure it does happen. I am sure that 
some of the boxers may be their own worst enemies. I mean they 
may want to fight when they really shouldn't be fighting 
because they want to earn money. I don't know how much 
influence a national commission is going to have on some of the 
economics involved in site fees and in promoting fights. I 
don't know that that would necessarily be part of your 
function.
    Mr. Murphy. Well, I am--there is a commercial on television 
now, promoting a certain community where--you know, what goes 
there--what goes on there, stays there.
    Ms. Torres. Yes, I know that community.
    Mr. Murphy. And I find it--actually, I find it pretty 
degrading to the gentleman who is a boxer there, who doesn't 
know who he is or what he is doing or what happened the night 
before. That is yes, come on. He is ready; let us go. I don't 
find that amusing because I think that is beyond what the sport 
should be doing. I mean fighting can be a fun sport, but if it 
is to the point where they are saying here is this gentleman 
who doesn't even know what is going on in the world, physically 
is clearly, pretty seriously injured, but I just wondered, for 
the sake of money, are people just saying let him go and he is 
just an expendable human being and who cares?
    Ms. Torres. Well, I that can be overcome by the enforcement 
of the medical standards. And unfortunately, sometimes you can 
see a change in a boxer over the course of only a year. We had 
a situation with litigation with a boxer, and he is in our 
office, and we deposed him twice. The next time I saw him on 
television, he was slurring his words, which was not happening 
before. So I think, as Dr. Schwartz said, there has to be at 
least yearly check-ups of these boxers. And I apologize if it 
looked like I was making fun of that commercial. I have not 
seen the one with the boxer.
    Mr. Murphy. I hope you get to see it because I don't think 
it is a good one for the sport.
    Mr. Stevens. Can I just make 1 comment, if I may? Bernard 
Hopkins said to me recently that the boxers need somebody to 
save them from themselves, and I think that is where the 
physicians and these strong commissions--I am never concerned 
about a commission like New York or New Jersey or Connecticut, 
because they are going to do the right thing. So as far as can 
States enforce themselves? Yes. Certain States and 
jurisdictions and commissions can. The majority do not, and 
that is the problem.
    Mr. Stearns. The gentleman's time has expired, and we have 
finished our questioning. I want to thank the witnesses. I 
think we had the 1996 Professional Boxing Safety Act we passed. 
We, I think, brought out some interesting points about this 
bill we have. I think, Dr. Schwartz, you are to be commended 
for starting this American Association of Professional Ringside 
Physicians. I think that is very impressive, and if we could 
get you to get it international that would help, too. I know 
you have your hands full.
    But I think that it is continuing in our mind that the 
boxing community is not doing that it--that we feel it should, 
and perhaps there might be a need for Federal regulation, much 
like the Professional Boxing Safety Act. So we are willing to 
work with you. We are willing to move this very general bill, 
as pointed out by you folks--it is not specific--to see if we 
can find some happy medium and pass it.
    So I will conclude the hearing on that positive note. Thank 
you.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

 Prepared Statement of Hon. John McCain, a United States Senator from 
                          the State of Arizona

    Thank you, Chairman Stearns, for holding this hearing to discuss 
the need for boxing reform and your bill, the United States Boxing 
Commission Act.
    Mr. Chairman, I have been a boxing fan for nearly fifty years, and 
while I have derived great joy from watching the sweet science, all too 
often I have been saddened and dismayed by the lack of integrity that 
has weakened professional boxing--called by many the ``red light 
district'' of professional sports. Of particular concern to me is the 
treatment of the sport's athletes. With rare exception, professional 
boxers come from the lowest rung on our economic ladder. They are the 
poorest and least educated among us, and the most exploited athletes in 
our nation.
    Congress has made efforts to protect professional boxers before. 
The Professional Boxing Safety Act of 1996 and the Muhammad Ali Boxing 
Reform Act of 2000 established uniform health and safety standards for 
professional boxers, as well as basic protections for boxers against 
the sometimes coercive, exploitative, and unethical business practices 
of promoters, managers, and sanctioning organizations. Unfortunately, 
ineffective and inconsistent oversight of professional boxing has 
contributed to the continuing scandals, controversies, unethical 
practices, and unnecessary deaths in the sport. Further legislative 
action is needed.
    One very important step we could take to better protect boxers and 
the integrity of professional boxing is to establish a Federal 
regulatory entity to oversee professional boxing and set basic uniform 
standards for certain aspects of the sport. Professional boxing remains 
the only major sport in the United States that does not have a strong, 
centralized association, league, or other regulatory body to establish 
and enforce uniform rules and practices. Because a powerful few benefit 
greatly from the current system of patchwork compliance and enforcement 
of Federal boxing law, a national selfregulating organization--though 
preferable to Federal government oversight--is not a realistic option. 
Many in professional boxing have concluded that the only rational 
solution is an effective and accountable Federal boxing commission.
    The Professional Boxing Amendments Act of 2005, which I introduced 
in January; the House companion bill introduced in February by 
Congressmen King, Osborne, and Pickering; and your own bill all would 
establish United States Boxing Commissions that perform substantially 
similar functions. I am very pleased that we all agree on the need for 
a Federal boxing commission.
    Mr. Chairman, the troubles that plague the sport of professional 
boxing undermine its credibility in the eyes of the public and--more 
importantly--compromise the health and safety of boxers. I believe that 
the creation of a Federal boxing commission would effectively curb 
these problems. In the last Congress, the Senate passed by unanimous 
consent a bill identical to the Professional Boxing Amendments Act of 
2005, and this year I expect quick action to approve the act, beginning 
with a Senate Commerce Committee executive session in the very near 
future to vote on the legislation and report it to the full Senate. I 
am hopeful that your committee and the entire House of Representatives 
too will pass legislation that establishes a United States Boxing 
Commission and helps to improve the health and safety protections for 
professional boxers.
    Again, Mr. Chairman, thank you for holding this hearing.

                                 <all>

</pre></body></html>
